U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Steven Baxter v. United States of America, No. 20-5133
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 14,
2020, and placed on the docket on July 22, 2020. The government’s response is now due, after
one extension, on November 9, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including December 9, 2020, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5133
BAXTER, STEVEN
USA

DWYER ARCE
KUTAK ROCK LLP
1650 FARNAM STREET
OMAHA, NE 68102-2186
402-661-8656
DWYER.ARCE@KUTAKROCK.COM
JOSEPH A. DIRUZZO
DIRUZZO & COMPANY
401 EAST LAS OLAS BLVD.
STE. 1400
FT. LAUDERDALE, FL 33301
305-350-5690
JDIRUZZO@FUERSTLAW.COM

